No. 20-1088

 

 

IN THE
Supreme Court of the United States

DAVID AND AMY CARSON, AS PARENTS AND NEXT
FRIENDS OF O.C., ET AL.,

Petitioners,
v.

A. PENDER MAKIN, IN HER OFFICIAL CAPACITY AS
COMMISSIONER OF THE MAINE DEPARTMENT OF
EDUCATION,

Respondent.

ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIRST CIRCUIT

BRIEF AMICUS CURIAE OF THE
BECKET FUND FOR RELIGIOUS LIBERTY
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,280 words, excluding the parts of the document that are exempted by Supreme Court

Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 10, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
